OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT




Validation of Air Enforcement Data
Reported to EPA by Massachusetts

    E1KAD7-01-0017-7100305


       September 29, 1997
            OFFICE OF INSPECTOR GENERAL
            REPORT OF AUDIT



Inspector General Division(s)   Eastern Audit Division
 Conducting the Audit           Boston, Massachusetts
Region(s) covered               Region 1
Program Office(s) Involved      Office of Environmental Stewardship
          OFFICE OF INSPECTOR GENERAL
          REPORT OF AUDIT




MEMORANDUM
SUBJECT:       Report of Validation of Air Enforcement Data Reported to
               EPA by Massachusetts
               Audit Report No. E1KAD7-01-0017-7100305
FROM:          Paul D. McKechnie
               Divisional Inspector General for Audit
               Eastern Audit Division
TO:            John P. DeVillars
               Regional Administrator
               Region 1


        Attached is our audit report on Validation of Air Enforcement Data Reported to EPA by
Massachusetts. The overall objectives of this audit were to determine whether the Massachusetts
Department of Environmental Protection (MADEP): (1) identified significant violators in
accordance with EPA’s Timely and Appropriate Enforcement Policy; (2) reported significant
violators to EPA; and (3) performed inspections that were sufficient to determine if a facility
violated the Clean Air Act (CAA). This report contains findings and recommendations that are
important to both EPA and MADEP.

        This audit report contains findings that describe problems the Office of Inspector General
(OIG) has identified and corrective actions the OIG recommends. This audit report represents
the opinion of the OIG. Final determinations on matters in this audit report will be made by EPA
managers in accordance with established EPA audit resolution procedures. Accordingly, the
findings contained in this audit report do not necessarily represent the final EPA position, and are
          OFFICE OF INSPECTOR GENERAL
          REPORT OF AUDIT


not binding upon EPA in any enforcement proceeding brought by EPA or the Department of
Justice.

ACTION REQUIRED

In accordance with EPA Order 2750, you as the action official are required to provide this office
a written response to the audit report within 90 days. Your response should address all
recommendations, and include milestone dates for corrective actions planned, but not completed.

We have no objection to the release of this report to the public.

Should you or your staff have any questions about this report, please contact Linda Fuller, Team
Leader, at (617) 565-3160.

Attachment

cc:    G. Mollineaux, R-1, Audit Coordinator
           OFFICE OF INSPECTOR GENERAL
           REPORT OF AUDIT



                    EXECUTIVE SUMMARY


PURPOSE
While states and local governments have primary responsibility for compliance and enforcement
actions within delegated or approved states, EPA retains responsibility for ensuring fair and
effective enforcement of federal requirements, and a credible national deterrence to non-
compliance.1 In order for EPA to ensure that states are effectively carrying out federal
enforcement requirements, the Agency needs compliance and enforcement data, especially
related to significant violators (SVs). In its February 14, 1997 audit report, “Validation of Air
Enforcement Data Reported to EPA by Pennsylvania,” OIG’s Mid-Atlantic Division (MAD)
reported that the State of Pennsylvania did not report all significant violators to EPA. Because of
the reporting weaknesses identified in the MAD audit, OIG initiated this review to determine if
other states across the nation were remiss in reporting data to EPA. Our audit objectives were to
determine whether the Massachusetts Department of Environmental Protection (MADEP):

#      identified significant violators in accordance with EPA’s Timely and Appropriate
       Enforcement Policy;

#      reported significant violators to EPA; and

#      performed inspections that were sufficient to determine if a facility violated the Clean Air
       Act (CAA).



       1
         June 26, 1984, Memorandum from EPA Deputy Administrator entitled, “Implementing
the State/Federal Partnership in Enforcement: State/Federal Enforcement Agreements.”

                                                 i                               Report No. 7100305
         OFFICE OF INSPECTOR GENERAL
         REPORT OF AUDIT



RESULTS IN BRIEF
Region 1, also known as EPA New England, awarded a pilot demonstration grant to MADEP
covering Fiscal Years (FYs) 1995 and 1996. The pilot program allowed MADEP to test a
multimedia approach to environmental protection and greater flexibility in using resources. As a
result, Region 1 allowed deviations from standard air program procedures. For example, routine
regional/state meetings to discuss SVs were no longer required in the grant agreement; MADEP
was allowed to test an inspection targeting plan which reduced the number of air major sources
to be inspected; and MADEP was allowed to test a new inspection protocol rather than use EPA
Level 2 inspection requirements. Our review showed that Region 1 and MADEP have much to
learn from the pilot and need to make adjustments to future grant agreements to assure that
EPA’s program expectations are met.

When planning future grant activity, Region 1 should refer to the Assistant Administrator’s
February 21, 1996 memorandum, “Core EPA Enforcement and Compliance Assurance
Functions.” This memorandum incorporated lessons learned from some of the Performance
Partnership discussions which had taken place. It was prepared with the intention to guide EPA
regional offices in their discussions with states regarding EPA’s essential responsibilities for
ensuring compliance with environmental standards through the use of enforcement and
compliance assistance tools. By carrying out the core functions outlined, regions secure the
protections of public health and the environment and the assurance that those regulated entities
who violate environmental requirements do not gain a competitive advantage over those who
comply with environmental laws. In addition to reexamining the success of innovative
approaches, Region 1 needs to assure that MADEP carries out its grant agreement commitments.

The following findings present areas which Region 1 and MADEP need to continue to work
together to assure that EPA receives all the information needed for carrying out national
objectives.

MADEP Needs to Identify Significant Violators

MADEP did not identify and report any SVs in FY 1996 even though several SVs existed.
Region 1's elimination of routine SV discussions with the state and MADEP’s misinterpretation
of EPA’s Timely and Appropriate policy contributed to MADEP not identifying SVs. As part of


                                               ii                              Report No. 7100305
          OFFICE OF INSPECTOR GENERAL
          REPORT OF AUDIT


a demonstration grant, Region 1 also allowed MADEP to reduce its inspections of air major
sources which reduced the universe of potential SV sources. As a result, Region 1 was not
advised of serious violations and unable to assure that appropriate enforcement action was taken.
Additionally, MADEP did not document the basis for why penalties were not assessed against
the facilities we believed were significant violators.

Region 1 and MADEP Need to Resolve Database Discrepancies

MADEP under reported the number of enforcement actions in EPA’s Air Facility Subsystem
(AFS) database for FY 1996 and did not enter any compliance inspection and enforcement data.
In addition, we found database discrepancies between the MADEP databases and Region 1's
AFS. MADEP did not comply with its special grant condition to update AFS on a quarterly
basis. The untimeliness of MADEP data input and the incompatibility of MADEP and EPA
systems contributed to the problem. As a result, EPA did not have a clear picture of state
accomplishments and was forced to use additional resources to correct the problem.



Region 1 Needs to Evaluate FIRST Inspection Protocol

Region 1 needs to conduct its own evaluation of MADEP’s use of the Facility-wide Inspection to
Reduce the Source of Toxics (FIRST) protocol to assure that such inspections were adequately
performed to determine a facility’s compliance with state and federal regulations. Region 1 and
MADEP developed the FIRST protocol as procedural guidance for use during multimedia
inspections. While MADEP provided an evaluation of its use of the FIRST protocol, this
evaluation’s conclusions were not definitive. In its evaluation, MADEP characterized its data as
85 percent accurate and stated that information obtained from staff interviews must be qualified
because some staff were ambivalent towards using the multimedia approach. Also, MADEP
claimed in its report that a single inspector was performing the inspections when in fact staffing
varied. FIRST protocol inspections did not include all minimum requirements of a Level 2
inspection even though Region 1's State Compliance and Enforcement Coordinator said the
inspections were to be equivalent to a Level 2 inspection. Additionally, Region 1 needs to
encourage MADEP to develop a structured training program for this new inspection approach.
MADEP did not have training criteria, individual inspector training records, or a data tracking
system. We believe a more structured training program would assist the state to effectively and


                                                iii                              Report No. 7100305
         OFFICE OF INSPECTOR GENERAL
         REPORT OF AUDIT


consistently perform multimedia inspections.


RECOMMENDATIONS
We have made a number of recommendations to the Regional Administrator to improve the
operation of the program, some of which follow. (For more details, refer to the
Recommendations at the end of Chapters 2, 3 and 4.)

To improve MADEP’s identification of SVs, we recommend that the Regional Administrator
include in MADEP grants a special condition requiring regional/state monthly meetings to
discuss SVs and other enforcement actions. We also recommend that Region 1 staff provide
training and guidance to MADEP staff on identifying and reporting SVs. Region 1 should also
negotiate with MADEP an increase in the number of air major sources to be inspected.

To improve database reconciliation between Region 1 and MADEP, we recommend that the
Regional Administrator require MADEP to comply with the grant’s reporting requirements such
as entering on a quarterly basis into AFS compliance and enforcement as well as penalty data.
We also recommend that the Regional Administrator consider adjusting MADEP’s grant award
for noncompliance with grant conditions related to data reporting.

To assure that MADEP effectively used the FIRST protocol, we recommend that the Regional
Administrator instruct Region 1 staff to conduct its own evaluation and encourage MADEP to
adopt a structured training program to ensure all inspectors are adequately trained to perform
multimedia inspections.



REGION 1's COMMENTS
Overall, Region 1 agreed with most of our recommendations but disagreed on the presentation of
certain conclusions. Their response along with the state’s response has been summarized at the
end of each finding. The complete Regional and state responses have been included as
Appendices 2 and 3 respectively. An exit conference was held with representatives from Region
1 and MADEP on September 24, 1997.


                                               iv                               Report No. 7100305
            OFFICE OF INSPECTOR GENERAL
            REPORT OF AUDIT



                             TABLE OF CONTENTS

                                                                                                                               Page

EXECUTIVE SUMMARY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

CHAPTER 1 - INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

         PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
         BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
         SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
         PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

CHAPTER 2 - MADEP NEEDS TO IDENTIFY SIGNIFICANT VIOLATORS . . . . . . . . 9

         SIGNIFICANT VIOLATORS NOT IDENTIFIED . . . . . . . . . . . . . . . . . . . . . . . . . . 10
         SIGNIFICANT VIOLATOR COORDINATION MISSING . . . . . . . . . . . . . . . . . . 17
         PENALTIES NOT ASSESSED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
         INSPECTIONS OF MAJOR AIR SOURCES REDUCED . . . . . . . . . . . . . . . . . . . 19
         CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
         REGIONAL RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
         OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
         MADEP RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
         OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
         RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

CHAPTER 3 - REGION 1 AND MADEP NEED TO RESOLVE
                DATABASE DISCREPANCIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

         C&E DATA UNDER REPORTED AND UNTIMELY . . . . . . . . . . . . . . . . . . . . . . . 27

                                                                   v                                             Report No. 7100305
         OFFICE OF INSPECTOR GENERAL
         REPORT OF AUDIT


      UNDER REPORTING A CHRONIC PROBLEM . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
      DATABASE DISCREPANCIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
      CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
      REGIONAL RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
      OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
      MADEP RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
      OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
      RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34




CHAPTER 4 - REGION 1 NEEDS TO EVALUATE FIRST PROTOCOL . . . . . . . . . . . . 35

      MADEP EVALUATION NOT CONCLUSIVE . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
      INSPECTIONS NOT LEVEL 2 EQUIVALENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
      FIRST PROTOCOL PILOT IDENTIFIED PROBLEMS . . . . . . . . . . . . . . . . . . . . 38
      INSPECTION STAFFING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
      MADEP NEEDS TO ESTABLISH A STRUCTURED
                TRAINING PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
      CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44
      REGIONAL RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44
      OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45
      MADEP RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45
      OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46
      RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

      APPENDIX 1: GLOSSARY OF ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48
      APPENDIX 2: REGIONAL RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
      APPENDIX 3: MADEP RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55
      APPENDIX 4: DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 64




                                                             vi                                          Report No. 7100305
            OFFICE OF INSPECTOR GENERAL
            REPORT OF AUDIT



                                    CHAPTER 1
                                      Introduction



PURPOSE                         While states and local governments have primary
                                responsibility for compliance and enforcement actions within
                                delegated or approved states, EPA retains responsibility for
                                ensuring fair and effective enforcement of federal
                                requirements, and a credible national deterrence to non-
                                compliance.2 In order for EPA to ensure that states are
                                effectively carrying out federal enforcement requirements,
                                the Agency needs compliance and enforcement data,
                                especially related to SVs. In its February 14, 1997 audit
                                report, “Validation of Air Enforcement Data Reported to EPA
                                by Pennsylvania,” OIG’s Mid-Atlantic Division (MAD)
                                reported that the State of Pennsylvania did not report all
                                significant violators to EPA. Because of the reporting
                                weaknesses identified in the MAD audit, OIG initiated this
                                review to determine if other states across the nation were
                                remiss in reporting data to EPA. Our audit objectives were
                                to determine whether the Massachusetts Department of
                                Environmental Protection (MADEP):

                                .      identified significant violators in accordance with
                                       EPA’s Timely and Appropriate Enforcement Policy;

                                .      reported significant violators to EPA; and

                                .      performed inspections that were sufficient to

        2
           June 26, 1984, Memorandum from EPA Deputy Administrator entitled, “Implementing
  the State/Federal Partnership in Enforcement: State/Federal Enforcement Agreements.”

                                              1                            Report No. 7100305
       OFFICE OF INSPECTOR GENERAL
       REPORT OF AUDIT


                    determine if a facility violated the Clean Air Act (CAA).


BACKGROUND    The CAA of 1990 lists 188 toxic air pollutants that must be
              reduced. EPA estimated that more than 2.7 billion pounds
              of toxic air pollutants are emitted annually in the United
              States. The list of air toxics touched every major industry,
              from the mining of base metals to the manufacture of high-
              tech electronics. EPA studies showed that exposure to
              these air toxics may result in up to 3,000 cancer deaths
              each year. Other adverse health effects of air toxics
              included: respiratory illness; lung damage; premature aging
              of lung tissue; as well as retardation and brain damage,
              especially in children.

              The CAA separately regulates six of the more serious air
              pollutants - ground level ozone, particulate matter, carbon
              monoxide, sulfur dioxide, lead, and nitrogen dioxide. These
              six criteria pollutants are emitted in large quantities by a
              variety of sources. EPA sets national ambient air quality
              standards for each of these criteria pollutants and the states
              must take action to assure attainment with these national
              standards.

              Section 105 of the CAA provided the initial authority for
              federal grants to help states and local agencies administer
              their air programs. Before EPA awarded each grant, it
              negotiated a work program with the state. The work
              program contained specific work commitments the state
              agreed to perform. The work program encompassed
              activities such as inspections, monitoring, permitting and
              enforcement, which included identifying and reporting
              significant violators.

              The MADEP conducted inspections of major facilities to
              ensure they met federal and state regulations. To assess

                           2                             Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       compliance during an inspection, the inspector would need
       to refer to the facility’s permit. The permit translated
       requirements of laws such as the CAA into individualized
       enforceable requirements.

       According to EPA policy, states can perform five different
       levels of inspections at air pollution facilities. To adequately
       evaluate a facility’s compliance with the CAA, EPA
       considered a Level 2 inspection the most appropriate. The
       Level 2 inspection included reviewing facility records to
       determine compliance with applicable regulations, taking


       and analyzing samples when appropriate, recording process
       rates and control equipment parameters, and performing
       visual observations of emissions.

       EPA provided general guidance for conducting Level 2
       inspections. However, MADEP and Region 1 developed an
       inspection protocol different from the EPA Level 2
       inspection. The inspection protocol, known as the FIRST
       protocol, was intended as a reference or guidance outlining
       the minimum elements of an annual compliance evaluation
       inspection for approximately 1,000 industrial major and
       minor facilities.

       Traditionally, the guidance that accompanied federal grant
       funds required MADEP to target most of its industrial
       inspections at the largest sources of pollution or “major”
       sources. In recent years, through grant negotiations,
       MADEP has increasingly used what it considered innovative
       schemes for targeting inspections. This practice gave less
       consideration to the targeting of strictly major facilities.

       MADEP policy required the issuance of a Notice of
       Noncompliance (NON), when an inspector identified a

                    3                               Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       violation. An NON specified the type of violation and the
       regulation the facility violated. It may also require the facility
       to show the actions to be taken to achieve compliance. If
       the violation met EPA’s definition of a significant violator,
       EPA policy required the state to report the facility for
       placement on EPA’s significant violator list. Before FY 1995,
       Section 105 grants required MADEP to identify and report
       significant violators to EPA. However, starting in FY 1995,
       air program compliance and enforcement activities were
       transferred to the Massachusetts Compliance Assurance
       Demonstration Grant. While criteria for reporting significant
       violators was not defined in the grant, EPA required the state
       to follow EPA’s February 7, 1992 “Issuance of Guidance on
       the Timely and Appropriate Enforcement Response to
       Significant Air Pollution Violators.”

       According to EPA’s Timely and Appropriate Enforcement
       Policy, a significant violator is any major stationary source of
       air pollution, which violated a federally-enforceable
       regulation. This policy required states to report significant
       violators to EPA within one month of the violation, and to
       maintain the facility on EPA’s list until it achieved
       compliance. After the violation was reported, the state and
       EPA should monitor the source until it achieves compliance.
       This included determining an appropriate time schedule for
       achieving compliance and assessing a penalty, if necessary.

       During Federal Fiscal Years (FFYs) 1995 and 1996,
       MADEP Air program compliance and enforcement activities
       were funded under the Compliance Assurance
       Demonstration Grant. This grant served as the forerunner of
       the performance partnership grant and agreement currently
       in place. The Demonstration Grant was for a two year
       period, October 1, 1994 through September 30, 1996. The
       total amount of grant funds provided as of September 30,
       1996 was $2,823,743; federal share $2,112,300 and state

                     4                              Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       share $711,443.                .

       The Compliance Assurance Demonstration Grant tested
       several aspects of the state-EPA relationship, and innovative
       ways of providing environmental protection. Some of the
       primary activities tested were multimedia inspections,
       flexible targeting of industrial sources and building an
       innovative electronic data system to improve multimedia
       facility compliance. While the grant did not contain
       language regarding the reporting of significant violators,
       separate correspondence from MADEP stated
       communication between EPA and MADEP regarding
       violators would continue under the 1996 Demonstration
       Grant.

       Each month EPA and the states are responsible for updating
       the air enforcement data on the Agency’s database known
       as the Aerometric Information and Retrieval System (AIRS).
       The AIRS Facility Subsystem (AFS) is part of the AIRS
       database, containing compliance and enforcement data on
       sources. New violations are to be reported to EPA via
       telephone and AIRS. EPA is to use this communication to
       promote a greater degree of teamwork between themselves
       and the states. However, if EPA is dissatisfied with a state’s
       enforcement action, EPA has the authority to override the
       state and assume the lead in resolving the violation.

       MADEP is an agency located in the Massachusetts Office of
       Environmental Affairs, and is divided into several functional
       offices and bureaus. MADEP is divided organizationally into
       five major offices, a Boston headquarters and four regional
       offices. Boston is generally responsible for writing
       regulations and guidance; the regional offices are
       responsible for operations. Staff in the regional offices were
       reorganized from a structure following the traditional
       program areas to one following multimedia functional areas.

                    5                             Report No. 7100305
          OFFICE OF INSPECTOR GENERAL
          REPORT OF AUDIT


                             During 1995 and 1996, a significant number of
                             Massachusetts air major sources converted to minor status.
                             However, EPA and state databases did not always reflect
                             these changes. MADEP staff gave us information to present
                             a more accurate picture of the universe of air major sources
                             and activities performed by MADEP staff. After deleting
                             facilities which converted to minor status, we determined
                             that for FFY 1996, there were now 250 air major sources.
                             MADEP conducted 39 inspections at these major sources
                             and issued 32 NONs as a result.


SCOPE AND METHODOLOGY We performed this audit according to the Government
                      Auditing Standards (1994 Revision) issued by the
                      Comptroller General of the United States as they apply to
                      performance audits. Our review included tests of the
                      program records and other auditing procedures we
                      considered necessary.

                             To accomplish our objectives we performed reviews and
                             conducted interviews at MADEP regional offices and its
                             central office in Boston. We visited three of MADEP’s four
                             regional offices. While at the MADEP regional offices, we
                             interviewed the Bureau of Waste Prevention Deputy
                             Directors, the Compliance and Enforcement Chiefs, Permit
                             Chiefs, and Senior Regional Counsel. We interviewed
                             Central Office staff as well.

                             At EPA Region 1, we interviewed staff from the Office of
                             Environmental Stewardship specifically in the
                             Air/Pesticides/Toxics section.


                             We reviewed the CAA, EPA’s February 7, 1992 “Issuance of
                             Guidance on the Timely and Appropriate Enforcement
                             Response to Significant Air Pollution Violators,” the June

                                         6                             Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       14, 1994 “Clarification Package for Guidance....” EPA’s
       “Compliance/Enforcement Guidance Manual (Revised
       1987),” Chapter 3, MADEP’s April 1997, “Evaluation of
       Compliance Assurance Demonstration Grant” and the
       September 15,1986 “Comprehensive Enforcement Policies
       and Guidance.” We also reviewed the FFY 1996 Section
       105 grants and the Compliance Assurance Demonstration
       grant awarded to the state. During this audit we used
       various printouts from EPA’s AIRS to obtain information on
       the number and names of major sources for FFY 1996 and
       what inspections were performed. We also used MADEP
       generated reports to determine the inspections performed
       and enforcement actions undertaken.

       To evaluate MADEP’s enforcement of the CAA
       requirements, we reviewed the air quality files maintained at
       MADEP offices. These files contained items such as
       inspection reports, NONs, consent decrees, permits, test
       results, emissions data and correspondence. Due to the
       complexity of air enforcement files, we received technical
       assistance from the OIG’s Mid-Atlantic technical staff and
       Region 1's Air/Pesticides/Toxics’ staff.

       We performed two analyses to accomplish our objectives.
       First we examined AIRs and MADEP data for major facility
       inspections performed in FFY1996. We were aware that
       FFY 1996 was a transition year for the permitting of facilities.
       Specifically, a significant number of major source facilities
       submitted applications to MADEP which would affect their
       emissions status and result in the conversion of the facility
       from a major to a minor source. We obtained information
       showing which major sources submitted applications to
       convert their emission status from a major to a minor source.
       We judgmentally selected all major facilities with 1996
       inspections but excluded those with a 1996 approval for a
       permit revision to a restricted or synthetic minor operating

                    7                              Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       status. Our universe for review included those facilities that
       had inspections in 1996 and a NON issued by MADEP. In
       some instances we also selected a facility that did not have
       an NON issued.

       To evaluate the adequacy of inspection reports we obtained
       technical assistance reviews from Region 1 and 3 staff
       associated with the Air program. To evaluate the adequacy
       of inspector training, we interviewed MADEP and Region 1
       staff.

       Our audit disclosed several areas needing improvement that
       are discussed in Chapters Two to Four. Our
       recommendations address the need to report significant
       violators and improve the quality of inspections performed.
       Action must be taken to ensure that MADEP reconciles its
       database with Region 1 and provides complete reporting
       data as required in its grant agreement. Additionally, Region
       1 needs to conduct its own evaluation of MADEP’s use of
       the FIRST protocol and encourage MADEP to establish a
       structured training program for FIRST inspections.

       We reviewed management controls and procedures
       specifically related to our objectives. However, we did not
       review the internal controls associated with the input and
       processing of information into AIRS or other automated
       records system.

       As part of this audit we also reviewed the Region 1 FFY
       1996 Assurance Letter prepared to comply with the Federal
       Manager’s Financial Integrity Act (FMFIA). We found that
       none of the weaknesses cited during our audit were
       disclosed in Region 1's annual report.

       Our survey began on January 24, 1997. As a result of the
       survey, we performed additional audit work from June 9,

                    8                             Report No. 7100305
        OFFICE OF INSPECTOR GENERAL
        REPORT OF AUDIT


                       1997 to July 31, 1997.

                       We issued a draft report on August 14, 1997. Region 1
                       submitted its response to us on September 22, 1997
                       (Appendix 2). We also included MADEP’s
                       response(Appendix 3) to the Region. We have made
                       revisions to the report, where appropriate, to reflect the
                       information provided us in the Region’s response. We
                       provide a synopsis of the Regional and state comments and
                       our evaluation at the end of each finding chapter.




PRIOR AUDIT COVERAGE   This was EAD’s first review of validation of air enforcement
                       data. Massachusetts was the only state in New England
                       selected for review. OIG’s MAD reviewed the adequacy of
                       Pennsylvania’s identification and reporting of SVs and
                       issued its February 14, 1997 audit report, “Validation of Air
                       Enforcement Data Reported to EPA by Pennsylvania”
                       (E1KAF6-03-0082-7100115).




                                    9                             Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT



             CHAPTER 2
 MADEP Needs to Identify Significant Violators




             MADEP did not identify and report any “Significant Violators”
             (SVs) in FY 1996 even though several SVs existed. The
             three sources listed in EPA’s database as Massachusetts
             SVs for that year were identified by the EPA Region 1 staff,
             not MADEP staff. We identified an additional three SVs
             from a sample of seven sources. Region 1's elimination of
             routine SV discussions with the state and MADEP’s
             misinterpretation of EPA’s Timely and Appropriate policy
             contributed to MADEP not identifying SVs. As part of a
             demonstration grant, Region 1 allowed MADEP to reduce its
             inspections of air major sources which in turn reduced the
             universe of potential SV sources. As a result, Region 1 was
             not advised of serious violations and unable to assure that
             appropriate enforcement action was taken. For the three
             SVs we identified, penalties were not assessed for two
             cases; a penalty was assessed for the third case but only
             after the facility repeatedly violated its opacity limits.
             (Opacity is the degree to which emissions reduce the
             transmission of light and obscure the view of an object in the
             background.)

             The number of SVs identified by MADEP staff has steadily
             declined since 1994. We believe the decline was due in part
             to Region 1's elimination of routine SV discussions and
             MADEP’s decision to stop entering data into EPA’s AFS
             (See Chapter 3). According to the Region 1 Air Coordinator,
             MADEP identified SVs as shown:


                         10                             Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT




       Fiscal Year     SVs Identified
                       by MADEP
       1994            14
       1995               2
       1996               0


       Identification of SVs to EPA is important to assure that
       regional personnel are aware of violations and concur with
       state enforcement action taken since the region can take
       action independently of the state. EPA’s February 7, 1992,
       “Issuance of Guidance on the Timely and Appropriate
       Enforcement Response to Significant Air Pollution Violators”
       (hereafter referred to as the Timely and Appropriate policy)
       provided that:

              The Clean Air Act vests responsibility for enforcement
              of the law in EPA. Therefore, EPA may move
              independently with respect to designation of a violator
              as a “Significant Violator” and EPA shall assume the
              lead in cases when it becomes apparent that the
              State is unable or unwilling to act in accordance with
              this guidance to resolve a violation in a timely and
              appropriate manner.

       Additionally, the SV data must be accurately maintained to

                     11                           Report No. 7100305
           OFFICE OF INSPECTOR GENERAL
           REPORT OF AUDIT


                            ensure that this data, which is shared by other enforcement
                            offices within EPA and the states, correctly reflects the SV
                            status for all sources subject to EPA’s policy. This data field
                            is becoming increasingly more important as the Agency
                            shifts further toward multimedia, geographic and industry
                            specific enforcement.


Significant Violators Not   MADEP did not identify any SVs during FY 1996. The three
Identified                  SVs in EPA’s 1996 database were entered by EPA Region
                            1's State Compliance and Enforcement (C&E) Coordinator
                            after he reviewed a MADEP enforcement report. Our review
                            of seven NONs found that three included violations which
                            should have been reported as SVs to Region 1. Our seven
                            cases represented half the NONs issued in 1996 which had
                            potential to include significant violations. Only 14 of the 32
                            NONs issued to air major sources potentially included
                            significant violations. The other 18 were for not submitting
                            operating permit applications (which was not considered a
                            significant violation by EPA for that period).

                            Controls were established to assist MADEP in identifying
                            SVs. MADEP created a checklist to aid the inspector in
                            identifying an SV. Also, the Region 1 State C&E
                            Coordinator was available to discuss whether violations
                            warranted an SV designation. However, we found no
                            evidence of the checklist in the files and MADEP staff did
                            not request Region 1's technical assistance. Based on the
                            above, we concluded that MADEP did not use the controls in
                            place to identify and report SVs to Region 1.

                            Even though the MADEP Commissioner stated that MADEP
                            staff have “definitional” differences with EPA’s SV policy,
                            MADEP staff used EPA’s Timely and Appropriate policy
                            when determining a violator’s SV status.


                                        12                              Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


        We reviewed 13 case files administered by three of the four
        MADEP regional offices:

      Regional        Number of
      Offices         Files Reviewed
      Northeast              5
      Southeast              6
      Central                2

        The 13 sources were classified in either the Air Facility
        Subsystem (AFS) or state databases as A1-Majors.
        However, five of the sources had applied and were approved
        as synthetic minors, and one source ceased operations and
        closed the facility. Of the seven remaining major sources,
        three had violations which warranted elevation to SV status.

        Based on our file reviews and discussions with MADEP
        regional staff, there was no evidence available to
        demonstrate whether the sources were ever considered as
        candidates for the SV list. The MADEP Southeast Regional
        Office (SERO) provided a copy of a MADEP designed
        checklist for identifying SVs, however, we found no evidence
        in any of the files that the checklist was used. MADEP
        Central Regional Office (CERO) staff stated that there were
        several discussions concerning one of the sources we
        identified as an SV, but they had never discussed the case
        with Region 1 technical staff. This breakdown in
        communication and lack of documentation not only affected
        MADEP’s ability to identify and record sources as SVs, but
        also demonstrated MADEP’s noncompliance with EPA’s
        Timely and Appropriate policy.

        A synopsis of the three sources we determined were SVs
        follows:

                    13                           Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       Major Source #1

       Major Source #1 chronically violated its opacity limits which
       were part of the Massachusetts State Implementation Plan
       (SIP). According to the EPA’s Timely and Appropriate policy
       a major source which violates a SIP emission is an SV.
       During a March 12, 1996 inspection, a MADEP inspector
       observed opacity of greater than 20 percent. The facility’s
       August 3, 1993 Plan Approval required zero percent opacity.
       The inspector noted that MADEP had given interim approval
       on February 23, 1996 to install two thermal oxidizer units
       (opacity controls) by mid-May. As a result, no NON was
       issued.

       MADEP’s Chief of Compliance and Enforcement (C&E)
       concurred with the inspector’s decision. On May 23, 1996,
       MADEP conducted a follow-up inspection and found that the
       units were installed according to the interim approval and
       were working correctly (zero percent opacity). Also, the
       plant’s neighbors were happy that the odors were gone.

       However, on July 21, 1996, neighbors complained to their
       Police Department that the plant was emitting smoke and
       obnoxious fumes. In a July 25, 1996 letter to the City’s
       Mayor, the City’s Conservation Department summarized that
       there had been many complaints received regarding the
       plant. In September and October more complaints were
       received from the neighborhood. On October 11, 1996,
       MADEP staff observed blue smoke during a visible emission
       observation. As a result, on October 22, 1996, MADEP
       issued an NON for smoke opacity equal to 30 percent.

       Complaints continued to be received by MADEP as of March
       1997. This violation was not considered an SV according to
       the C&E Chief because the October 1996 opacity violation
       was considered a one time occurrence since the installation

                   14                            Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       of the oxidizer units. He also stated the company showed a
       good faith effort by working with MADEP to correct the
       October violation.

       In our opinion, this violation should have been identified as
       an SV because of the plant’s chronic opacity problem.
       While we can accept MADEP’s decision not to issue an
       NON in March 1996, a violation did occur; therefore, the
       October violation was not a first time occurrence.
       Additionally, the numerous citizens’ complaints over a
       number of months led us to conclude that the violation cited
       by MADEP in October 1996 was not a first time occurrence.
       Also, a plant’s willingness to work at correcting a violation
       does not preclude it from being reported as an SV.

       EPA’s Office of Enforcement and Compliance Assurance
       (OECA) provided further clarification on whether one opacity
       violation constituted a significant violation as follows:

              Opacity is a surrogate for particulate matter emissions
              and is considered an emissions violation.
              Accordingly, even a single opacity violation must be
              identified. How it is then ranked and tracked is to be
              determined by agreement of EPA and the State/local
              authority.

       Additionally:

              The policy establishes a procedure and a mechanism
              for differentiating between these two examples in
              terms of the priority for action, but requires an
              identification of the violation in each instance so the
              agencies have an opportunity to review the relevant
              facts and agree as to the priority for resolving the
              violation.



                       15                         Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       By not notifying Region 1 of this violation, MADEP prevented
       an opportunity for it and Region 1 to review the case and
       come to an agreement on resolving the violation.

       Major Source #2

       We believe Major Source #2 was an SV because it
       exceeded its particulate matter standards which was a
       violation of the New Source Performance Standards
       (NSPS). MADEP staff reviewed results of stack tests
       performed on October 4 and 5, 1995. The test results
       showed particulate emissions during the three compliance
       runs were 0.054, 0.040 and 0.033 grains per dry standard
       cubic feet of flue gas. In addition to exceeding the NSPS
       standard, the readings exceeded MADEP’s permitted worst
       case emission standard for particulate matter of 0.030 grains
       per dry standard cubic foot as contained in the Plan
       Approval of April 11, 1994. Based on this non-compliance,
       MADEP staff requested the source to be re-tested for
       particulate matter emissions. The November 30, 1995
       results were 0.153, 0.166 and 0.176 grains per dry standard
       cubic foot of flue gas, which still exceeded the maximum
       allowable emission rate.

       On December 14, 1995, MADEP issued an NON based on
       the second test readings. In the NON, MADEP noted the
       following:

             The compliance stack testing results revealed that
             particulate emissions were greater than 0.040 grains
             per dry standard cubic foot of flue gas, which is in
             violation of the New Source Performance Standards
             (NSPS) regulations for Hot Mix Asphalt Facilities
             (Federal Register 40 CFR, Part 60, Subpart I).




                   16                            Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT



       The MADEP staff found the source to be in compliance with
       applicable emission limitations on February 9, 1996, after
       the third compliance emission test report.

       Until the source reached compliance in February, it should
       have been listed as an SV because the violation issued by
       MADEP staff met the following definition of a Significant
       Violator:

             1. A “Major” source and it violates any one or more of
             the following:

                    b. NSPS emission, monitoring or substantial
                    procedural requirements.

       The SERO Deputy Regional Director concurred that the
       violation should have been reported as an SV but was not
       because the stack tester did not relay the results to the
       appropriate staff who identify SVs. The SERO Deputy
       Regional Director assured that corrective action had been
       taken to prevent this from recurring.

       Major Source #3

       Major Source #3 chronically violated its opacity limits, a
       violation not only of the SIP, but also of a MADEP
       negotiated Consent Order. MADEP issued an NON on June
       26, 1996 which reported a history of visible emission
       violations that dated back to August 12, 1991. MADEP staff
       made observations over a four month period and recorded
       opacity readings equal to and greater than 35 percent on
       four of the six days readings were conducted. On the other
       two days the opacity readings were greater than 20 and 30
       percent. At the time this NON was issued, the source was
       under a June 16, 1995 Administrative Consent Order for

                   17                           Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       visual emissions in excess of 20 percent opacity and odor
       violations.

       In the June 1996 NON, MADEP wrote that the source was in
       violation of its consent order. The MADEP files for this
       source contained evidence of numerous complaints. In a
       December 17, 1996 letter, MADEP referred this case to the
       state’s Attorney General’s Office for higher level
       enforcement. However, MADEP did not report this case as
       an SV to Region 1. MADEP’s Central Regional Office
       (CERO) Deputy Director stated that the visual emission
       readings were not conducted using EPA’s Method 9. She
       said in order to get the appropriate visual position, readings
       would have to be conducted from a highway which would not
       be safe for the inspector. Because Method 9 was not used,
       MADEP believed the readings would be challenged and
       would not be legally defensible at the federal level.

       In regards to this question, EPA’s OECA provided the
       following:

             Our response is that a violation should be listed
             where the agency has a reasonable basis to believe
             that a violation has occurred. Listing the violation is
             not an adjudication and does not require proof
             ”beyond a reasonable doubt” or “by a preponderance
             of the evidence.” Indeed, one of the appropriate
             responses to a listing as a SV is to conduct further
             investigation.

       OECA suggested that a state could make arrangements with
       the state police to provide an adequate measure of safety on
       the highway during inspections.

       We concluded that the source should have been placed on
       the SV list since the violations met the Timely and

                   18                            Report No. 7100305
          OFFICE OF INSPECTOR GENERAL
          REPORT OF AUDIT


                       Appropriate policy SV definition:

                             Agencies shall deem a source to be an SV if it is a
                             major source and it violates the following:

                                    .      SIP emission, monitoring or substantial
                                           procedural requirements, regardless of
                                           pollutant designation status.

                                    .      SIP, NSPS or NESHAP emission,
                                           procedural or monitoring requirements
                                           violated repeatedly or chronically.



                                    .      Any substantive provision of a State
                                           Judicial Order or a State Administrative
                                           Order which was issued for an
                                           underlying SIP violation.




Significant Violator   In our opinion, the one overriding cause of MADEP’s failure
Coordination Missing   to identify SVs was a breakdown in communication between
                       MADEP’s regional compliance and enforcement staff, and
                       Region 1 air technical staff. Region 1's State C&E
                       Coordinator stated that in the past he directly communicated
                       on a regular basis with MADEP air compliance and
                       enforcement staff. This communication ceased under the
                       Mass Demonstration Grant because there was no longer a
                       requirement for MADEP and Region 1 to discuss SVs on a
                       monthly basis.

                       Prior CAA Section 105 grants provided that the state and
                       EPA would conduct monthly Compliance/Enforcement

                                   19                            Report No. 7100305
          OFFICE OF INSPECTOR GENERAL
          REPORT OF AUDIT


                         discussions about current/potential SVs. The FY 1996 Mass
                         Demonstration Grant deleted this reference. According to a
                         draft “MA-DEP FFY96 Compliance Assurance
                         Demonstration Grant Response to 11/2/95 EPA Comments”,
                         EPA commented in item #14, “Significant Violator
                         coordination is missing.” MADEP responded, “As in FY95,
                         DEP will verbally communicate significant violator
                         information monthly to EPA.” However, we found that
                         MADEP was not communicating to Region 1 on a monthly
                         basis. Region 1's State C&E Coordinator advised that
                         MADEP did not call on a monthly basis but rather on an as
                         needed basis. MADEP’s Associate Commissioner stated
                         that MADEP staff surveyed its actions monthly to identify
                         SVs but only called EPA when needed to add/delete
                         information. If no action occurred, MADEP did not call EPA.

                         This lack of communication between EPA and MADEP
                         contributed to MADEP’s failure to identify SVs. MADEP’s
                         regional staff commented that additional guidance or
                         clarification on identifying SVs was needed. EPA’s State
                         C&E Coordinator stated that he could provide this guidance.
                         Additionally, since inspectors conducting multimedia
                         inspections have diverse technical backgrounds, EPA
                         technical staff can provide the air expertise which some
                         state inspectors may not possess. Direct and open
                         communication will resolve questions on guidance and
                         provide multimedia inspectors with a source for technical
                         expertise.


Penalties Not Assessed   MADEP did not assess penalties against Major Sources #1
                         and #2. MADEP did not believe these violations
                         represented a significant potential harm to public health,
                         safety or the environment. Major Source #3 had violated
                         opacity limits since 1993 before MADEP assessed a penalty.
                         Consent Orders and NONs had been issued from 1993 to

                                     20                           Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       1996. MADEP considered its actions to be a long term
       enforcement strategy and believed the strategy achieved a
       sustainable remedy for environmental problems at the plant.
       For Major Sources #1 and #2, files showed no evidence that
       MADEP considered whether a penalty should have been
       sought or if there was any economic benefit to the facilities
       for their noncompliance. While a penalty was finally
       assessed against Major Source #3, the time involved was
       excessive in our opinion.

       We bring this information to the Region’s attention because
       in its January 27, 1994 Multi-Media Overview Report of
       MADEP, the Region was concerned that MADEP was
       relying excessively on the use of NONs. The report further
       stated:

             Yet, NONs are not appropriate as the only
             enforcement response to substantial violations.
             Indeed, some types of violations deserve judicial or
             administrative action, with penalties, as the first
             enforcement intervention. Such stronger actions
             send a more powerful deterrence message to the
             violator and the regulated community at large.
             Moreover, collecting penalties that recoup the
             economic benefit to the violator from its violations
             ensures that all members of the regulated community
             are treated equally under the law. In other words,


       entities that violate the law are prevented from gaining an
       economic advantage over their law-abiding competitors.

       In future discussions with MADEP, the Region should assure
       that MADEP has considered stronger actions such as
       penalties and properly documented basis why it did/did not
       assess a penalty.

                   21                             Report No. 7100305
           OFFICE OF INSPECTOR GENERAL
           REPORT OF AUDIT



Inspections of Major Air   Region 1 agreed to let MADEP try an innovative inspection
Sources Reduced            targeting plan under the FY 1996 Demonstration Grant.
                           However, this inspection plan reduced the number of
                           inspections of air major sources to a level which may affect
                           the state’s ability to maintain the enforcement presence it
                           planned according to MADEP’s January 29, 1996 letter to
                           Region 1. This reduction also limited the number of
                           potential SV cases which could be identified and reported.

                           In its January 29, 1996 grant application, the MADEP
                           Assistant Commissioner for the Bureau of Waste Prevention
                           wrote to Region 1, “DEP will increase targeting of smaller
                           sources who were less-frequently inspected under traditional
                           targeting approaches, while maintaining a deterrent
                           inspection and enforcement presence at larger, high
                           potential risk facilities.” Region 1 agreed to this innovative
                           inspection targeting approach under the FY 1996
                           Demonstration Grant by not requiring MADEP to conduct a
                           specific number of air major sources.

                           According to EPA’s March 29, 1991 “Revised Compliance
                           Monitoring Strategy” (CMS), “The goal of CMS is to develop
                           the most environmentally effective inspection program for
                           each State. To accomplish this goal, more open and
                           frequent planning and discussion between the State and
                           EPA is required, which will build a stronger State-Federal
                           partnership.” Both Region 1 and MADEP believed the
                           targeting approach included in the 1996 Demonstration
                           Grant was the most environmentally effective for
                           Massachusetts.

                           However, the CMS also states that the final Inspection Plan
                           “must explicitly include”: 1) a list of sources to be inspected;
                           2) how the list of sources was determined; and 3) an
                           estimated resource allocation. The Region 1

                                        22                              Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       Air/Pesticides/Toxics (APT) Chief said that Region 1
       departed from the CMS process under the Performance
       Partnership Grant (PPG) philosophy. Region 1 did not
       require MADEP to provide as grant deliverables the three
       elements described as part of an Inspection Plan. The 1996


       grant included a description of the basis for selecting
       sources for inspections. However, a list of sources to be
       inspected, as well as a resource allocation plan, was not
       submitted.

       The APT Chief said that he would like to see all major
       sources “touched” at least once during a four year period.
       Depending on the database used, MADEP conducted from
       39 to 54 inspections at air major sources. In either case,
       MADEP will not meet the APT Chief’s suggested inspection
       schedule. At the current rate, it is also doubtful that MADEP
       could inspect all its air majors at least once every five years
       as stipulated in EPA’s March 1980 “Inspection Frequency
       Guidance”. In our opinion, this shortage in coverage will not
       maintain the deterrent presence MADEP claimed it would
       continue with its new inspection targeting plan.

       Additionally, MADEP and Region 1 need to decide if less
       frequent major source inspections are justified. MADEP’s
       Deputy Assistant Commissioner stated that the inspections
       of smaller sources had not detected the serious violations
       anticipated. The Deputy Assistant Commissioner also said
       that the state was discussing the results and whether or not
       to increase its inspections of major sources. EPA’s CMS
       provides, “An analysis of each State’s Inspection Plan
       results will be conducted at the end of each year by the
       Regional Office.” Region 1's APT Environmental Protection
       Specialist stated that although targeting of major inspections
       had not increased for FY 1997, it would be discussed and

                   23                              Report No. 7100305
        OFFICE OF INSPECTOR GENERAL
        REPORT OF AUDIT


                    negotiated for FY 1998. Together, Region 1 and MADEP
                    should evaluate and discuss results of past targeting plans
                    and make adjustments accordingly to the FY 1998
                    inspection targeting plan.



CONCLUSION          Region 1 and MADEP need to enhance their partnership
                    with greater communication. SV identification is a joint
                    decision making process. In our opinion, by deleting the
                    requirement for routine SV discussions from the grant
                    agreement, the Region did not clarify its expectation that
                    such discussions were to continue. As a result, MADEP was
                    unable to identify any SVs on its own. Discussions on SV
                    identification should also assist Region 1 and MADEP to
                    determine the adequacy of the enforcement action planned.
                    MADEP’s limited use of penalties may have allowed
                    economic benefits to companies which polluted or provided
                    an inadequate deterrent to prevent prolonged pollution.
                    Region 1 and MADEP also need to further discuss the
                    results of their inspection targeting plans to assure that
                    adequate opportunities exist to identify significant violations.
                    Open and continuous dialogue will benefit both partners and
                    ensure the ultimate success of the partnership, a safe
                    environment.


REGIONAL RESPONSE   Region 1 generally agreed to implement our
                    recommendations related to SV identification. The Region
                    described a number of actions it was taking, such as
                    developing SV coordination procedures with MADEP and
                    providing SV identification training to MADEP staff.

                    The Region also noted that the demonstration grant
                    attempted to balance EPA’s interests in media specific
                    expectations while providing MADEP enough flexibility to

                                 24                             Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       pilot its approach. However, different expectations evolved:

             The IG audit has pointed to the identification and
             communication of CAA Significant Violators as an
             area where EPA and MADEP diverged on media
             specific expectations. This was further exacerbated
             by the absence of a clear understanding of how core
             program expectations should be addressed in an
             experimental demonstration grant.



       The Region further responded:

             The audit report implies that the region allowed
             improper CAA procedural departures. For example,
             we no longer required SV meetings as a grant
             requirement. First, because we no longer required
             SV meetings in the grant does not mean we
             abandoned the notion that these were an expected
             practice. In the spirit of performance partnership, the
             region has attempted to move beyond “dollars for
             widgits” as the basis of its relationship with the state
             and do not include all of our expectations as grant
             requirements. Secondly, during this time period, EPA
             and Massachusetts air personnel were meeting
             regularly with representatives from the Attorney
             General’s Office along with EPA legal staff to discuss
             significant CAA violators. In fact the level of
             participation at these meetings far exceeded what
             occurs in most other state enforcement discussions.
             Where this process fell short was not capturing the
             universe of CAA violations for discussions. In
             addition, it was difficult to capture that universe of
             CAA violations, because MADEP had invested in
             FIRST related coordination/communication in lieu of

                   25                            Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


             media specific coordination/communication.
             Communication efforts were further hampered by the
             existence of four distinct DEP regions with no clear
             mechanism for collecting media specific information.

       Concerning MADEP’s penalty assessment practices, the
       Region stated:

             The IG audit raised concerns over MADEP’s
             enforcement approach with regard to economic
             benefits. EPA New England has a fundamental
             expectation that state enforcement programs will
             neutralize economic benefit from noncompliance. It is
             not clear from the case files cited that MADEP has an
             endemic problem with economic benefits although we
             agree with the audit finding that EPA’s response
             would likely have been different (at least with regard
             to gravity based penalty) for cases reviewed. We
             believe that closer communications between MADEP
             and EPA on all media specific enforcement matters
             will address the enforcement issues discussed in the
             audit.

       During our exit conference, the Region stated that it was not
       clear that the facilities cited in our report received an
       economic benefit from their violations. However, the Region
       agreed that MADEP should document the basis for not only
       instances when a penalty was assessed but also for when it
       is not assessed.

       Finally on the issue of reduced inspections of air major
       sources, the Region wrote:

             The partial disinvestment in targeting CAA majors
             cited in the audit was not an improper departure from
             CAA procedures but rather a strategic decision fully

                   26                             Report No. 7100305
        OFFICE OF INSPECTOR GENERAL
        REPORT OF AUDIT


                       allowed for under the CAA Compliance Monitoring
                       Strategy (CMS). At the time, there was general
                       consensus at EPA New England and its state air
                       programs that we were overinvesting resources in
                       major source compliance monitoring. In the spirit of
                       the Demonstration Grant, we agreed to depart from
                       the traditional inspection expectation (not
                       requirement) for major sources. As implementation
                       progressed, we advised MADEP that there was too
                       large a disinvestment in major sources (even though
                       we supported the strategy of investing inspection
                       resources more broadly than the major expectation).

                       In fact there is currently programmatic
                       acknowledgment within EPA that all media CMSs
                       may now be outdated and require revisitation. This
                       merely underscores the validity of entertaining
                       forward looking alternatives to historical compliance
                       monitoring expectations. There is no current,
                       universally held expectation on what the right “mix” of
                       sources to be inspected is.




OIG EVALUATION   The Region has taken positive actions to carry out our SV
                 identification and reporting recommendations. However, we
                 do continue to recommend that SV discussions be held
                 within a specific period of time, such as monthly.

                 We disagree that our report “implies” the Region allowed
                 “improper” CAA procedural departures. We stated that the
                 elimination of SV meetings was one of the causes why
                 MADEP did not identify SVs. We never cited this activity as

                             27                            Report No. 7100305
        OFFICE OF INSPECTOR GENERAL
        REPORT OF AUDIT


                 a CAA requirement. We did point out, however, that prior air
                 media specific grants provided for monthly SV discussions.
                 We also pointed out that the decline in MADEP’s
                 identification of SVs coincided with the elimination
                 of this special condition of prior grants. We believed it was
                 an effective procedure and thus recommended its
                 reinstatement.

                 Additionally, we also reported that the lack of communication
                 on SVs was missing between MADEP’s regional compliance
                 and enforcement staff, and Region 1's air technical staff.
                 While Region 1 staff may have had several meetings with
                 the Attorney General’s Office and other state staff, obviously
                 these meetings were not about the identification of SVs;
                 otherwise, the state would have reported SVs.

                 Based upon further discussion of the penalty assessment
                 issue during our exit conference, we revised this section of
                 the report. We agreed that the state needs to document its
                 penalty decisions, even when penalties are not assessed.

                 Finally, we concur with Region 1's plan to increase the
                 number of major sources to be inspected. We recognize
                 that in the Demonstration Grant, Region 1 agreed to let
                 MADEP try an innovative inspection targeting plan because
                 both parties believed the approach was the most
                 environmentally effective for Massachusetts in accordance
                 with the CMS. We did not report Region 1's approval of
                 MADEP’s targeting plan as an “improper departure from
                 CAA procedures,” but rather reported on this change
                 because it affected the opportunities MADEP had to identify
                 air major sources which were SVs.


MADEP RESPONSE   MADEP agreed that it can improve its reporting of SVs to
                 EPA and that this effort was underway. Additionally,

                             28                            Report No. 7100305
        OFFICE OF INSPECTOR GENERAL
        REPORT OF AUDIT


                 MADEP commented that many states and OECA have
                 debated EPA’s definition of the air program’s significant
                 violator. MADEP believed the OIG misrepresented the SV
                 identification problem. It stated that 32 files were examined
                 and 29 did not contain SV reporting problems. MADEP also
                 believed that the OIG misunderstood its Administrative
                 Penalty Statute in concluding that violations were not a first
                 time occurrence and penalties should have been issued
                 against Major Source #1.

                 MADEP stated, “Now that the demonstration period is
                 concluded, DEP plans to inspect at least 1/5 of the universe
                 of air ‘majors’ during FY98.”


OIG EVALUATION   We are pleased that MADEP agreed to improve its reporting
                 of SVs to EPA. While debate may be ongoing regarding the
                 appropriate definition of significant violators, MADEP and
                 other states have a responsibility to carry out the program
                 activities as currently defined. MADEP was aware of this
                 fact as evidenced by an earlier statement that even though it
                 did not agree with EPA’s SV definition, it did use it as
                 criteria.

                 MADEP was not correct in stating that the OIG examined 32
                 files and 29 did not contain SV reporting problems. As
                 previously explained (See page 11), OIG reviewed seven
                 files from a universe of 14 which had potential to contain an
                 SV.

                 As already described in our finding, we continue to conclude
                 that more than one violation occurred at Major Source #1.
                 Regarding the appropriateness of a penalty assessment, we
                 reported that MADEP’s files did not document whether a
                 penalty should have been sought or if there was any
                 economic benefit to the facility for its noncompliance.

                             29                             Report No. 7100305
       OFFICE OF INSPECTOR GENERAL
       REPORT OF AUDIT



                  We concur with MADEP’s response to inspect at least 1/5 of
                  the air major facilities. This will expand MADEP’s
                  opportunities to discover significant violators.


RECOMMENDATIONS   We recommend that the Regional Administrator require his
                  staff to:

                  1.    Amend the current grant and include in future grants,
                        a special condition for monthly regional/state
                        meetings to discuss potential SVs and other
                        enforcement actions.

                  2.    Instruct MADEP to provide your staff with copies of
                        issued NONs to assist in discussions to determine
                        when a violating source should be placed on the
                        “Significant Violator” list.

                  3.    Provide MADEP staff with guidance and training on
                        how to designate and report violating sources as
                        “Significant Violator” under the air program.

                  4.    Instruct MADEP to document the files of major
                        sources showing that consideration was given to
                        elevating the violation to significant status and a
                        reason provided for the decision.

                  5.    Negotiate with MADEP an increase in the number of
                        air major sources to be inspected.

                  6.    Instruct MADEP to document basis for why it did/did
                        not assess penalties against SVs.




                             30                              Report No. 7100305
          OFFICE OF INSPECTOR GENERAL
          REPORT OF AUDIT



                          CHAPTER 3
                  Region 1 and MADEP Need to Resolve
                        Database Discrepancies



                          MADEP under reported the number of enforcement actions
                          and did not enter any compliance inspection and
                          enforcement (C&E) data in the AFS in FY 1996. In addition,
                          we found database discrepancies between the MADEP
                          databases and Region 1's AFS. The untimeliness of
                          MADEP data input and the incompatibility of MADEP and
                          EPA systems contributed to this problem. As a result, EPA
                          did not have a clear picture of state accomplishments and
                          was forced to use additional resources to correct the
                          problem.

                          The FY 1996 Demonstration Grant stated:

                                DEP will report compliance and enforcement data
                                semiannually from FMF incorporating MOS, and will
                                perform data entry quarterly into SSEIS for upload to
                                the federal AFS . . . (emphasis added)


C&E Data Under Reported   Approximately one-half (40) of the NONs issued to major
and Untimely              sources were not entered into AFS until six months after the
                          fiscal year end. On October 12, 1996, MADEP provided a
                          disk to Region 1 containing a half year’s worth of C&E data
                          from its Stationary Source Emission Inventory System
                          (SSEIS) database. MADEP did not update the C&E data in
                          AFS until March 29, 1997. MADEP maintained two air
                          program databases. The SSEIS database was the original


                                      31                            Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       database used by MADEP for AIRS (C&E) data. The
       MADEP also maintained multimedia C&E data in its Facility
       Master File (FMF) database. MADEP provided semi-annual
       paper reports containing C&E data to EPA from the FMF
       database. However, these paper reports were not a
       substitute for entering data into AIRS. The SSEIS database
       was compatible with the AFS; however, the FMF was not

       compatible with either SSEIS or AFS. Data could be
       transferred from SSEIS to update AFS.

       In late spring 1995, a MADEP Assistant Commissioner
       instructed the MADEP inspectors to stop entering data into
       SSEIS and instead to enter it only into FMF. MADEP staff
       wanted to avoid redundant data entering into two state
       databases. In order to update AFS, MADEP staff in the
       Boston Office manually entered data from FMF into SSEIS.

       MADEP provided Region 1 a SSEIS disk on October 12,
       1996 which was supposed to contain FFY 1996 C&E data.
       Region 1 staff found that the diskette contained only half of
       the FY 1996 C&E data and notified MADEP of this under
       reporting. In late December 1996 or early January 1997,
       Region 1 staff contacted MADEP advising that the National
       AFS Database needed to be updated since OECA would be
       extracting 1996 C&E data by the middle of January. In order
       to update AFS, Region 1 staff requested and MADEP
       provided a diskette in ASCII format containing C&E data
       from its FMF database. Since the FMF and AFS systems
       were not compatible, Region 1 staff with assistance from
       one of its contractors converted FMF inspection and
       enforcement data but not NONs, and entered it into the AFS
       database. Region 1 staff decided not to convert and enter
       the NON data into AFS because OECA would not draw
       down this data and Region 1 believed that MADEP would
       soon be updating AFS.

                   32                            Report No. 7100305
          OFFICE OF INSPECTOR GENERAL
          REPORT OF AUDIT


                            Additionally, MADEP did not enter any monetary penalty
                            data into AFS even though state reports showed penalties
                            were assessed to major sources. (Penalty data was
                            maintained in a third separate database.) Neither FMF nor
                            SSEIS contained monetary penalty data fields. Since AFS
                            was updated electronically from SSEIS, no penalty data was
                            available to update AFS. MADEP did not receive any
                            special waivers from Region 1 exempting them from entering
                            C&E and penalty data into AFS on a quarterly basis.
                            Regardless of MADEP’s concern on maintaining of separate
                            media databases, MADEP was still responsible for updating
                            AFS in a timely manner per the grant agreement’s special
                            conditions. The decision to stop entering data in SSEIS was
                            made with no contingency plan in place to comply with the
                            EPA grant requiring timely entering of data into AFS. Also,
                            Region 1 was forced to use additional resources to perform
                            a task that Region 1 already awarded grant funds to the
                            state to perform.


Under Reporting a Chronic   MADEP’s under reporting of enforcement data into
Problem                     AFS was identified by Region 1 as a problem based on its
                            1993/1994 monitoring visit. The 1994 monitoring report
                            stated that under reporting was not a new problem. It
                            indicated that work groups were established to deal with this
                            serious problem but efforts to resolve it needed to be
                            redoubled. The report also contained a section with areas
                            that warranted special attention. One of these areas
                            recommended that MADEP and Region 1 make a concerted
                            effort to solve the enforcement data reporting problems as
                            rapidly as possible. The section concluded that under
                            reporting will necessarily result in Massachusetts being
                            portrayed as conducting less enforcement than it actually
                            did.

                            The under reporting problem has not improved. The

                                        33                            Report No. 7100305
          OFFICE OF INSPECTOR GENERAL
          REPORT OF AUDIT


                         workgroup did not complete its objectives. MADEP’s
                         inadequate data reporting represents a serious and chronic
                         problem which requires that Region 1's management play a
                         more aggressive role to ensure that the under reporting
                         problem is resolved.


Database Discrepancies   In addition to under reporting, database discrepancies
                         between the MADEP database and Region 1's AFS were
                         noted during our review. In our effort to select a universe of
                         major sources to review, we found the data contained in
                         MADEP’s database varied from that in Region 1's AFS.
                         Some examples noted were as follows:

                         Enforcement Actions

                                MADEP’s database contained information on 80
                                enforcement actions (NONs) having been issued in
                                FY 1996, while the AFS database showed 49
                                enforcement actions (NONs) issued.

                         Inspections Conducted

                                MADEP’s database showed that 108 inspections of
                                major sources were conducted in FY 1996, while the
                                AFS database contained information on 123 major
                                sources inspected.

                         Synthetic Minors

                                In FYs 1995 and 1996, 411 major sources applied for
                                Restricted Emission Status (RES) or “Synthetic Minor”
                                classification. There were 279 sources approved as
                                RES in FY 1995. However, the FMF and AFS
                                continued to list these sources as majors.


                                     34                             Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       True Majors

             After identifying and subtracting the number of major
             sources that were approved as RES or synthetic
             minors, we found the MADEP database contained 39
             “true majors” having been inspected in FY 1996. The
             AFS database contained 54 “true majors” as
             inspected in FY 1996.

       The following discrepancies were found between the AFS
       and FMF databases, specifically, for the MADEP’s Northeast
       (NERO) and Southeast (SERO) Offices.

       NERO Enforcement

             There were 14 NONs listed on the AFS but none on
             the MADEP listing. Additionally, there were 14 other
             NONs on the MADEP listing that were not in AFS.

       SERO Enforcement

             There were three sources with NONs listed on the
             AFS database that were not on the MADEP
             database. There were 22 NONs issued to major
             sources on the MADEP’s database that were not on
             the AFS database.


       NERO Inspections

             The AFS database contained 24 major sources
             having been inspected in FFY 1996 which were not in
             the MADEP database. There were nine major
             inspections in the MADEP’s database that were not in
             AFS.


                  35                            Report No. 7100305
        OFFICE OF INSPECTOR GENERAL
        REPORT OF AUDIT


                    SERO Inspections

                          The AFS showed 12 inspections of major sources
                          which were not on the MADEP database. The
                          MADEP’s database contained seven major source
                          inspections which were not on AFS database.

                    In December 1996, Region 1 and MADEP started another
                    work group in conjunction with the Performance Partnership
                    Agreement with objectives to address reliability questions
                    between the two databases. One of the work group’s initial
                    tasks was to identify that differences in databases existed.
                    Also, in March 1997, the EPA Region 1 Administrator sent
                    each New England state a matrix of its C&E data contained
                    in AFS to determine its accuracy. The Region 1 and
                    MADEP workgroup were aware of the database differences
                    but had not begun to reconcile the databases at the
                    conclusion of our field visit. The workgroup’s agenda
                    contained a milestone to reconcile the databases on a
                    quarterly basis, starting in January through October 1997.


CONCLUSION          Considering the length of time that data reconciliation has
                    remained a problem, Region 1 and MADEP need to more
                    aggressively resolve this issue. Region 1 also needs to hold
                    MADEP accountable for carrying out the grant conditions it
                    agreed to when it accepted program funding. Inaccurate
                    data will adversely affect EPA’s decision making.


REGIONAL RESPONSE   The Region agreed that improvement needed to be made:

                          Another shortcoming of the region’s program
                          relationship with Massachusetts was our inability to
                          make SEIS (sic), FMF and AFS communicate
                          effectively. We concur with your finding that EPA

                                36                            Report No. 7100305
        OFFICE OF INSPECTOR GENERAL
        REPORT OF AUDIT


                       New England and MADEP need to resolve database
                       discrepancies. We appreciate that states such as
                       Massachusetts may have data needs unaddressable
                       through EPA data systems and that these EPA
                       systems may not be optimally designed for the
                       challenges of the next millennium. However, this
                       does not eliminate the obligation of a state to
                       adequately support EPA’s data needs. We are
                       working with MADEP to reconcile the scope and
                       mechanics of data reporting for our respective
                       systems.

                 Because the Region and MADEP were making efforts to
                 improve the data system, the Region did not intend to
                 withhold FY 1997 grant funds for nonperformance of data
                 maintenance.



OIG EVALUATION   We encourage the Region to continue its effort on this issue.
                 However, we continue to recommend that the Region
                 withhold grant funds for nonperformance. MADEP agreed to
                 support EPA’s data needs as part of its grant agreement.
                 Because MADEP did not carry out that responsibility, the
                 Region had to expend other resources to meet its data
                 needs.


MADEP RESPONSE   While MADEP agreed that data management could be
                 improved, it disagreed with the OIG’s presentation of the
                 problems:

                       The OIG misrepresents DEP’s compliance and
                       enforcement reporting to EPA-New England. All
                       references by the OIG to DEP’s failure to report any
                       compliance and enforcement data for FFY96 are

                             37                            Report No. 7100305
        OFFICE OF INSPECTOR GENERAL
        REPORT OF AUDIT


                       incorrect statements of the facts, ignoring semi-
                       annual paper reports, and the electronic data
                       provided, however late. DEP explained to the OIG
                       that, although internal problems with reporting of
                       significant violators and with electronic data reporting
                       exist, semi-annual paper reports of all compliance
                       and enforcement activities were provided to EPA in a
                       specially-prepared format to accommodate EPA’s
                       segregated regulatory programs. DEP offered to
                       reconcile the specific data differences between AFS
                       and FMF, but EPA-New England failed to provide the
                       requested AFS data necessary for reconciliation.
                       That data was recently provided to DEP. Also,
                       references to the electronic data provided to EPA in
                       FMF-format which required additional EPA resources
                       to process are misleading. This data was provided to
                       EPA on diskette in ASCII format, the universal data
                       format, at EPA’s request. Additional work remains to
                       be done, largely by DEP, to improve electronic data
                       reporting.


OIG EVALUATION   Our report was amended to show that MADEP submitted
                 semi-annual C&E paper reports to EPA. However, these
                 reports were not substitutes for the grant requirement to
                 update AIRS quarterly. MADEP acknowledged this
                 requirement since they had staff enter data from FMF into
                 SSEIS in order to update AIRS. MADEP entered no data
                 into AIRS in FFY 1996. Incomplete data was entered in
                 October 1996 and complete data for FFY 1996 was not
                 entered until March 1997. The lateness in updating AIRS
                 and the incompleteness of data resulted in enforcement
                 data being under reported in FFY 1996. In order for data to
                 be useful it must be current and complete. At the time of our
                 field work we were advised that no data for FFY 1997 had
                 been entered into AIRS. This demonstrates a chronic

                             38                             Report No. 7100305
       OFFICE OF INSPECTOR GENERAL
       REPORT OF AUDIT


                  problem which needs to be addressed by Region 1.

                  Regarding reconciliations, MADEP acknowledged that the
                  necessary AFS report was received and Region 1 stated
                  that reconciliations are taking place. We trust that the
                  Region/MADEP partnership will prevent future problems
                  MADEP claimed it had in obtaining data from Region 1.

                  MADEP’s submission of data in ASCII format rather than
                  FMF format is irrelevant. The grant agreement required
                  MADEP to update AIRS. Region 1 in fact updated AIRS
                  because it had to convert MADEP’s ASCII formatted data in
                  order to get it into AIRS. This was not Region 1's
                  responsibility.

                  We concur that MADEP needs to do additional work to
                  improve data reporting.


RECOMMENDATIONS   We recommend that the Regional Administrator :

                  1.    Require MADEP to comply with the grant’s reporting
                        requirements such as entering C&E along with
                        penalty data into AFS on a quarterly basis.

                  2.    Require MADEP to provide, for Region 1’s review,
                        quarterly reconciliations between AFS and FMF
                        databases.

                  3.    Consider adjusting the amount of the current MADEP
                        grant award for not complying with the 1996 grant
                        requirements. Also, adjust future grant awards if
                        MADEP’s reporting does not improve or begins to
                        regress.




                             39                           Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT




            40        Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT



             CHAPTER 4
  Region 1 Needs to Evaluate FIRST Protocol



             While MADEP provided an evaluation of its use of the
             FIRST protocol, this evaluation’s conclusions were not
             definitive. Also, MADEP claimed in its report that a single
             inspector was performing the inspections when in fact
             staffing varied. FIRST protocol inspections did not include
             all minimum requirements for a Level 2 inspection even
             though Region 1's State C&E Coordinator said the
             inspections were to be equivalent to a Level 2 inspection.
             Additionally, MADEP had not established a structured
             training program for FIRST inspections and did not maintain
             a control system to track training needs. Region 1 allowed
             MADEP to conduct its own evaluation and did not plan to
             review MADEP’s use of the FIRST protocol until 1999. In
             our opinion, Region 1 placed too much reliance upon the
             state to evaluate itself. Without conducting its own
             evaluation, Region 1 cannot be assured that FIRST protocol
             inspections met federal inspection standards or adequately
             identified significant environmental problems and supported
             enforcement actions.

             Region 1 and MADEP developed the FIRST protocol, issued
             October 31, 1994, for use during multimedia inspections.
             Region 1 allowed MADEP to use the FIRST protocol with the
             understanding that an evaluation would be conducted. In a
             March 29, 1996 Letter from MADEP’s Assistant
             Commissioner, Bureau of Waste Prevention, to Region 1,
             MADEP agreed to perform an evaluation of the FIRST
             protocol to determine if its use resulted in :


                         41                           Report No. 7100305
         OFFICE OF INSPECTOR GENERAL
         REPORT OF AUDIT


                                 . the discovery of significant environmental
                                   problems, and

                                 . sufficient support for enforcement cases.



                   MADEP included its evaluation of the FIRST protocol in the
                   April 1997, “An Evaluation of the Massachusetts
                   Compliance Assurance Demonstration Grant.” MADEP’s
                   Deputy Director for Business Compliance Division stated
                   that Chapter 2, which showed increased enforcement
                   effectiveness, supported the conclusion that multimedia
                   inspections were effective. In Chapter 2, “Inspection and
                   Enforcement Trends and Analysis,” MADEP reported that
                   since 1993 its rate of overall enforcement actions increased
                   and, except for 1996, its higher level enforcement actions
                   increased. Chapter 4 also included an evaluation of the
                   FIRST protocol based upon interviews with MADEP
                   inspectors.


MADEP Evaluation   In our opinion, conclusive support was missing from
Not Conclusive     MADEP’s April 1997 report to substantiate whether the
                   FIRST protocol was effective in identifying significant
                   environmental problems. In the report’s Executive
                   Summary, MADEP stated that significant reporting and
                   reconciliation difficulties were encountered due to the
                   installation of a new multimedia data system. As a result,
                   MADEP claimed an 85 percent accuracy rate for the data
                   provided. In our opinion, this left too much room for error in
                   evaluating trends.

                   Additionally, MADEP did not compare its results to a period
                   when traditional inspection approaches were used.
                   MADEP’s trends and analysis reports started with 1993,

                               42                             Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       when multimedia inspections were implemented on a full
       scale basis. Therefore, we do not know the results of
       different inspection approaches.

       MADEP did not define significant violations. We do not
       know what type of violations make up the overall
       enforcement rate. A schedule entitled, “Higher Level
       Enforcement Rate (as % of inspections)” was also
       presented. While MADEP indicated that such actions
       represented more serious environmental problems, we do
       not know if EPA defined significant violations would be
       included in this category. This schedule (exhibit 2-3)
       showed increases from 1993 but a decrease in 1996.
       MADEP suggested various reasons for changes in
       enforcement rates from revised targeting to providing
       enforcement training for inspectors. It also wrote, “Note that
       the enforcement rate numbers suggest the efficacy of the
       FIRST Protocol B at finding environmental problems.”
       However, MADEP did not explain how it reached this
       conclusion. No direct correlation was made showing how a
       particular inspection approach resulted in identification of
       violations.

       MADEP’s evaluation was also based upon interviews with
       inspectors. However, MADEP qualified its evaluation with:

             Any conclusions and findings must be qualified with
             an awareness that a great deal of ambivalence
             remains in DEP regional offices and among some
             DEP staff as to whether any types of multimedia
             inspection should have been attempted, and for what
             types of regulated entities it is or would be most
             effective.

       Since MADEP staff may be ambivalent to this new
       approach, Region 1 staff may be able to add some

                   43                             Report No. 7100305
           OFFICE OF INSPECTOR GENERAL
           REPORT OF AUDIT


                           objectivity to the evaluation.

                           Because of the above weaknesses in MADEP’s evaluation
                           of its use of the FIRST protocol, we believe Region 1 needs
                           to conduct its own evaluation. Region 1 should also do its
                           own evaluation to determine how well FIRST inspections are
                           meeting federal requirements.


Inspections Not             For example, Region 1 staff should determine if FIRST
Level 2 Equivalent   inspections were equivalent to EPA’s Level 2 inspections as
                     envisioned. For six inspection reports reviewed, we determined
                     that one inspection was clearly equivalent to a Level 2 inspection;
                     one inspection was not equivalent; and the remaining four
                     inspections did not include adequate documentation to support a
                     Level 2 designation. In general, those four inspections did not
                     adequately address control equipment.




                           Region 1's State C&E Coordinator stated that inspections
                           using the FIRST protocol were equivalent to Level 2
                           inspections. EPA’s “CAA Compliance/Enforcement
                           Guidance Manual,” Chapter Three, states that Level 2
                           inspections are considered a compliance determining
                           inspection.

                           Additionally, only Level 2 inspections are counted for
                           reporting purposes in EPA’s database. EPA’s March 29,
                           1991, “Revised Compliance Monitoring Strategy” provided
                           that: “For an on-site visit to a stationary source to be
                           countered as an inspection, it must meet the minimum
                           requirements of a Level 2 inspection as determined in “The
                           Clean Air Act Compliance/Enforcement Guidance Manual”
                           (Revised 1987),...”

                                        44                             Report No. 7100305
           OFFICE OF INSPECTOR GENERAL
           REPORT OF AUDIT


                       For the six inspections we reviewed: the one inspection
                       considered Level 2 equivalent was reported in AFS; the one
                       inspection not Level 2 equivalent was reported in AFS; and
                       two of the remaining four were reported in AFS. Thus,
                       MADEP received equal credit as other states for conducting
                       Level 2 inspections when in fact not all the minimum
                       requirements were met.


FIRST Protocol Pilot   Region 1's APT Chief said Region 1 would review the FIRST
Identified Problems    protocol during its state multimedia enforcement review in
                       FY 1999. In our opinion, Region 1 allowed too much time to
                       pass before making its own assessment of a new, innovative
                       approach. We noted that a 1994 joint EPA/state evaluation
                       of the FIRST protocol pilot resulted in identifying serious
                       problems. An August 30, 1994 memorandum from the EPA
                       Pilot Evaluation Team to MADEP stated:

                             In general, it appears that the pilot showed that the
                             protocol failed to meet some, if not all, of its intended
                             objectives. As a result of field testing, field staff and
                             their managers felt, to varying degrees, that the
                             protocol did not save time, did not necessarily help
                             them to recognize significant violations, and did not
                             help them more readily recognize pollution reduction
                             opportunities. Furthermore, pilot staff who felt weak
                             in a particular program seemed to require more
                             guidance, not less, and documentation of inspections
                             with an abbreviated format was found to be
                             insufficient to support follow-up and impractical
                             logistically.

                       MADEP’s April 1997 evaluation continued to report similar
                       concerns. Chapter 4 listed some of the following concerns
                       regarding use of FIRST inspections:


                                   45                             Report No. 7100305
           OFFICE OF INSPECTOR GENERAL
           REPORT OF AUDIT


                             - they are not as likely to provide as much depth as
                             an inspection for a single waste medium;

                             - they are more time-consuming (takes longer to do
                             an inspection);

                             - inspectors are expected to know details of every
                             program and it is difficult to remain current on so
                             many regulations;

                             - they are difficult to perform effectively for large
                             facilities;

                             - fewer air and hazardous waste inspections occur
                             statewide (that is, fewer targeted inspections of EPA
                             priority sources or “majors” in these programs).

                      Considering problems identified at the pilot stage continued
                      into the implementation phase, we believe Region 1 should
                      become active in reviewing the protocol now.


Inspection Staffing   We also found that even though MADEP stated in its April
                      1997 report that multimedia inspections were to be
                      performed by a single inspector rather than a team of single-
                      media inspectors, staffing varied by state regional office.
                      Interviews with three of the four MADEP Deputy Regional
                      Directors disclosed that each held a different view on
                      staffing of multimedia inspections. The NERO Deputy
                      Regional Director stated that regardless of facility size, only
                      one inspector was sent, 90 percent of the time. She
                      believed MADEP intended for a single inspector, not a team
                      of single-media inspectors, to perform the multimedia
                      compliance inspections.

                      The SERO Deputy Regional Director emphatically stated

                                   46                               Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       that multimedia inspections did not mean one inspector per
       facility, but rather one facility would be completely inspected
       at one time, even if it took more than one inspector. He said
       it would be highly unlikely and in only extremely, rare
       instances that one inspector could effectively inspect a
       major facility. He also stated that a small facility, with only
       one process, could be inspected by a single inspector.

       The CERO Deputy Regional Director stated that a major
       concern of many inspectors was the expectation that they
       will have to be the sole, expert inspector for each multimedia
       area. She said inspectors very often went in pairs or sought
       the advice of other inspectors to ensure all multimedia
       inspections were adequately performed. She stated two
       inspectors were used to inspect a large major facility.
       However, one inspector may be sent to inspect a facility
       which was considered to be a minor source of pollution.

       By relying solely on MADEP’s April 1997 report, Region 1
       did not receive the entire picture of how the FIRST
       inspections were implemented. MADEP’s report gave the
       impression that only one inspector was conducting
       multimedia inspections.

       Region 1 needs more detailed information to make a better
       decision regarding the future use of the FIRST protocol.
       Region 1 also needs to evaluate whether MADEP’s use of
       the FIRST protocol significantly deviated from national
       standards. Part of Region 1's responsibilities is to ensure
       that national standards are implemented, monitored and
       enforced consistently in all the states (EPA Assistant
       Administrator’s February 21, 1996 memorandum, “Core EPA
       Enforcement and Compliance Assurance Functions”). Once
       Region 1 has finalized its review, it should seek EPA
       Headquarters concurrence for permanent use and the
       possibility of encouraging other states to use this new

                   47                             Report No. 7100305
           OFFICE OF INSPECTOR GENERAL
           REPORT OF AUDIT


                         approach.



MADEP Needs to           As part of Region 1's evaluation of MADEP’s
Establish a Structured   implementation of the FIRST protocol, we recommend
Training Program         that Region 1 review MADEP’s training of multimedia
                         inspectors. MADEP did not have training criteria for
                         multimedia inspectors and did not maintain training records
                         or a tracking system to determine inspector training needs.
                         We believe a more structured training program would assist
                         the state to effectively and consistently perform multimedia
                         inspections.

                         The June 29, 1988, EPA Order 3500.1 provides:

                               Because State and local personnel perform more
                               than 80% of all environmental compliance inspections
                               nationally under delegated or approved programs, it is
                               essential for EPA to work with the State and local
                               agencies to help assure that their personnel too
                               receive ample training and development. Although
                               this program does not require State/local agencies to
                               train compliance inspector/field investigators, it does
                               encourage these agencies to adopt structured
                               approaches to train their personnel, recognizing
                               State-specific concerns and the value of alternate
                               instructional methods, and to use EPA-developed
                               training materials where appropriate.

                         The Order further states that: “EPA’s training program
                         recognizes the importance of this mutual relationship in
                         design and implementation of inspector training.”

                         MADEP’s Training Coordinator, Bureau of Waste Prevention
                         (BWP), stated there was no written criteria or established

                                     48                            Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       policy for multimedia inspector training. The one exception
       was the requirement for multimedia inspectors to attend
       health and safety training. He also stated that there was no
       state-wide certification program for MADEP multimedia
       inspectors. Additionally, MADEP did not control training by
       maintaining individual training records or a database tracking
       system. Without a structured training program and a
       database to track individual training, there was no assurance
       that inspectors have been adequately trained to adequately
       perform multimedia inspections. Effective inspector
       multimedia training is essential to the consistent, thorough
       completion of multimedia environmental compliance
       inspections.

       Multimedia classroom training was conducted initially in
       June 1994 and again in November 1994. However, since
       November 1994, only written training materials and guidance
       documents were provided; no general classroom instruction
       was conducted. Classroom training since November 1994
       was offered only in media specific topics. Inspectors hired
       since November 1994 have been trained almost entirely
       through informal, field “mentoring” approaches conducted on
       as-needed basis by each state regional office.

       We also learned that inspector performance was informally
       discussed between the supervisor and inspector without any
       formal, written, performance evaluations prepared. Two of
       the three Deputy Regional Directors stated that supervisors
       should observe inspector performance and prepare formal
       written evaluations of the inspector’s performance on an
       annual basis. Both Deputy Regional Directors believed this
       was an excellent way to identify areas where inspectors may
       need additional multimedia training. The third Deputy
       Regional Director believed the current system was adequate
       and additional formal written evaluations were not
       necessary.

                   49                            Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT


       According to Chapter 4 of MADEP’s April 1997 evaluation
       report, inspectors offered the following criticisms:

             - not enough training at the time;

             - lack of hands-on training at sites in the field;

             - lack of training for inspectors who have joined BWP
             since the protocol was delivered;

             - absence of on-going training;

             - lack of follow-up training subsequent to training
             sessions;


             - training should be geared to different levels of
             inspectors;

             - training should be interactive;

             - inspectors would have liked longer and more
             comprehensive training, particularly in the media in
             which they were unfamiliar.

       Additionally, the MADEP Deputy Director for Business
       Compliance Division, Enforcement and Audit Unit; MADEP’s
       Training Coordinator, BWP; and three MADEP Deputy
       Regional Directors expressed the following concerns on
       multimedia training:

             - there was no written criteria for multimedia training;

             - lack of a central/regional data base tracking system
             to ensure all training is documented. There was no
             central data base tracking system to access an

                   50                              Report No. 7100305
        OFFICE OF INSPECTOR GENERAL
        REPORT OF AUDIT


                     inspector’s training file to determine what courses an
                     inspector had completed or needed to complete;

                     - there were no training records;

                     - lack of training funds;

                     - Region 1 had not been responsive to MADEP
                     training needs;

                     - needed more in-depth multimedia specific training;

                     - needed to provide people more skills on how to work
                     together as a multimedia team;

                     - needed a larger, better selection of training courses;
                     and

                     - difficult to get training in a central training classroom.




CONCLUSION     Region 1 needs to conduct its own evaluation of MADEP’s
               use of the FIRST protocol. MADEP’s evaluation did not
               provide conclusive evidence that the protocol was more
               effective in identifying significant violators, especially as
               defined by EPA. Data system weaknesses and MADEP
               staff’s resistance to accepting the FIRST protocol may have
               clouded results. Also, MADEP’s evaluation reported that
               problems which were identified in the pilot phase continued
               into the implementation phase. MADEP’s presentation of
               how the FIRST inspections were staffed was unclear. An
               EPA review should also focus on how well the FIRST
               inspections were at meeting federal standards. Our limited

                           51                               Report No. 7100305
        OFFICE OF INSPECTOR GENERAL
        REPORT OF AUDIT


                    review showed that FIRST inspections may not be
                    equivalent to Level 2 inspections. This information is
                    important to determine program success.

                    Adequate training of inspectors is another important aspect
                    in determining how well the FIRST protocol was working.
                    MADEP did not have training standards, a structured training
                    program, or controls in place to assure that inspectors
                    received technical expertise to effectively perform
                    multimedia inspections. Region 1 and MADEP should work
                    together to develop a structured multimedia training
                    program. Such a program would help to ensure the success
                    of the implementation of MADEP’s innovative, inspection
                    approach.

                    With an independent evaluation of the FIRST protocol and a
                    structured training program, Region 1 can assist not only
                    MADEP, but other states which may wish to learn from this
                    demonstration program.


REGIONAL RESPONSE   In response to our recommendations the Region stated that
                    it will:

                          1.     commit to its own analysis of the FIRST
                                 protocol in FY 1998;



                          2.     share the results of its review with OECA and
                                 solicit input from appropriate OECA staff and
                                 management;

                          3.     work with MADEP to ensure that there is a
                                 clearly articulated training program in place at
                                 MADEP for inspectors applying the FIRST

                                52                             Report No. 7100305
        OFFICE OF INSPECTOR GENERAL
        REPORT OF AUDIT


                               protocol; and

                        4.     encourage MADEP to document the training
                               profiles of its inspectors.

                 Region 1 also stated that it typically includes a discussion of
                 state assistance needs in the PPA/PPG and will be sure to
                 include training support in the FY 1998 PPA discussions.


OIG EVALUATION   We are pleased with the Region’s positive actions to
                 address our recommendations.


MADEP RESPONSE   MADEP believed that the OIG did not properly interpret
                 segments of their April 1997 report, An Evaluation of the
                 Massachusetts Compliance Assurance Demonstration
                 Grant. Their statement regarding an 85 percent accuracy
                 rate for data was meant only to “characterize” the data.
                 Additionally, MADEP’s statement that conclusions and
                 findings must be qualified with an awareness that some
                 MADEP staff were ambivalent toward the multimedia
                 approach was not meant to qualify the entire report.

                 MADEP did not believe it was appropriate to compare an air
                 quality Level 2 inspection to a multimedia FIRST inspection.
                 The FIRST protocol was never intended to be equivalent to
                 a single-medium inspection according to MADEP. It wrote,
                 “We remain confident that the environmentally significant
                 issues of regulatory compliance were not overlooked, and
                 that any potential losses in depth in individual regulatory
                 programs are out weighed by the benefits of breadth across
                 all regulatory programs.” MADEP also stated that the OIG
                 did not find that the FIRST protocol was ineffective in
                 identifying significant violations.


                              53                             Report No. 7100305
        OFFICE OF INSPECTOR GENERAL
        REPORT OF AUDIT


                 Finally, MADEP did not agree that a structured, multimedia
                 inspector training program was warranted. MADEP believed
                 its initial, multimedia training along with various media
                 specific and on the job training was sufficient.


OIG EVALUATION   We have not changed our conclusion that conclusive
                 support was missing from MADEP’s April 1997 report to
                 substantiate the effectiveness of the FIRST protocol.
                 MADEP’s conclusions were based upon staff interviews
                 (which it qualified) and its data (85 percent accurate). Our
                 finding was not intended to conclude that the FIRST protocol
                 was or was not effective, only to show that sufficient
                 information was not available to make a conclusion. This is
                 one reason why we recommended that Region 1 conduct its
                 own evaluation. The other reason was to assure that
                 inspections using the protocol address federal expectations.

                 Such a federal expectation would be whether or not the
                 inspections are equivalent to an EPA Level 2 inspection.
                 Region 1 staff stated that FIRST inspections were to be
                 “equivalent” to Level 2 inspections. The FIRST inspection
                 manual provided for a comparable review. Our review
                 showed that such comparability may not be occurring.
                 Therefore, we believe the Region should evaluate this issue.

                 We continue to recommend that MADEP establish a
                 structured training program. MADEP’s lack of training
                 standards, inspector training records, or a data tracking
                 system did not provide controls to assure the adequacy of
                 inspector training. MADEP undertook a significant change in
                 how inspections were conducted. MADEP’s April 1997
                 report indicated that some personnel had still not bought into
                 this concept and others believed they needed more training.
                 In our opinion, a structured training program should help
                 address these issues.

                             54                            Report No. 7100305
       OFFICE OF INSPECTOR GENERAL
       REPORT OF AUDIT




RECOMMENDATIONS   We recommend that the Regional Administrator require his
                  staff to:

                  1.    Conduct an independent evaluation of MADEP’s use
                        of the FIRST inspection prior to FY 1999. The
                        Region should consider efficiency and cost.

                  2.    Discuss the results of your review with EPA
                        Headquarters and, if applicable, seek Headquarters
                        concurrence for permanent or expanded use of the
                        FIRST protocol.

                  3.    Encourage the MADEP to adopt a structured training
                        program to ensure all inspectors are adequately
                        trained to perform multimedia inspections.

                  4.    Work with MADEP staff to develop training criteria for
                        multimedia inspector training.

                  5.    Assist MADEP to develop a database tracking system
                        to monitor inspector training.

                  6.    Assess MADEP’s training needs annually through
                        state/EPA work group participation. This will help
                        improve communications between EPA and MADEP.




                             55                            Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT




            56        Report No. 7100305
         OFFICE OF INSPECTOR GENERAL
         REPORT OF AUDIT


                                                     APPENDIX 1


                      GLOSSARY OF ACRONYMS


AFS        Air Facility Subsystem
AIRS       Aerometric Information and Retrieval System
APT        Air, Pesticides, Toxics
BWP        Bureau of Waste Prevention
CAA        Clean Air Act
C&E        Compliance and Enforcement
CERO       Central Regional Office (of MADEP)
CMS        Compliance Monitoring Strategy
EAD        Eastern Audit Division
FFY        Federal Fiscal Year
FIRST      Facility-wide Inspection to Reduce the Source of Toxics
FMF        Facility Master File
FMFIA      Federal Manager’s Financial Integrity Act
FY         Fiscal Year
MADEP      Massachusetts Department of Environmental Protection
NERO       Northeast Regional Office
NESHAP     National Emissions Standards for Hazardous Air Pollutants
NON        Notice of Noncompliance
NSPS       New Source Performance Standards
OECA       Office of Enforcement and Compliance Assurance
PPG        Performance Partnership Grant
SERO       Southeast Regional Office
SIP        State Implementation Plan
SSEIS      Stationary Source Emission Inventory System
SV         Significant Violator
VOC        Volatile Organic Compound




                                    57                          Report No. 7100305
OFFICE OF INSPECTOR GENERAL
REPORT OF AUDIT




            58        Report No. 7100305
            OFFICE OF INSPECTOR GENERAL
            REPORT OF AUDIT


                                                               APPENDIX 4


                                        DISTRIBUTION


Headquarters

Office of Inspector General - Headquarters (2421)
Agency Audit Follow up Coordinator (3304)
Agency Audit Follow up Official (3101)
Assistant Administrator for Enforcement and Compliance Assurance (2201A)
Assistant Administrator for Air & Radiation (6101)
Associate Administrator for Congressional & Legislative Affairs (1301)
Associate Administrator for Communications, Education & Public Affairs (1701)
Associate Administrator for Regional Operations & State/Local Relations (1501)
EPA Library (3403)

EPA Region 1

Regional Administrator
Director, Office of Environmental Stewardship
Enforcement Managers (OES)
Chief, Air, Pesticides and Toxics Office
Audit Coordinator

Other

Office of Inspector General - Divisional Offices
General Accounting Office




                                                59                        Report No. 7100305
